<html>
<title> - NATIONAL SCIENCE FOUNDATION PART I: OVERVIEW AND OVERSIGHT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  NATIONAL SCIENCE FOUNDATION PART I:
                         OVERVIEW AND OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2017

                               __________

                           Serial No. 115-07

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-096PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>        
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             March 9, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     6

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    18

                               Witnesses

Dr. France Cordova, Director, National Science Foundation (NSF)
    Oral Statement...............................................    20
    Written Statement............................................    22

Ms. Allison Lerner, Inspector General, National Science 
  Foundation (NSF)
    Oral Statement...............................................    29
    Written Statement............................................    31

Discussion.......................................................    41

             Appendix I: Answers to Post-Hearing Questions

Dr. France Cordova, Director, National Science Foundation (NSF)..    58

Ms. Allison Lerner, Inspector General, National Science 
  Foundation (NSF)...............................................    70

            Appendix II: Additional Material for the Record

Report and video link submitted by Dr. France Cordova, Director, 
  National Science Foundation (NSF)..............................   130

 
                  NATIONAL SCIENCE FOUNDATION PART I:
                         OVERVIEW AND OVERSIGHT

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 11:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.
[GRAPHIC] [TIFF OMITTED] T5096.001

[GRAPHIC] [TIFF OMITTED] T5096.002

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome and good morning. I want to welcome a local class 
from Paul VI. Thank you for joining us today. They're here for 
their government day, and I imagine some of them might live in 
my colleague's district also, but a northern Virginia school 
with a lot of folks I know there. So great to have you here 
today.
    Good morning, and welcome to today's hearing, which is 
entitled ``National Science Foundation Part 1: Overview and 
Oversight.'' I now recognize myself for five minutes for an 
opening statement.
    My district in Virginia is home to many research and 
technology companies on the forefront of technological 
innovation, so I'm very pleased that we're able to have this 
opportunity in this Committee. The innovative products and 
services they offer are often the end result of taxpayer-
supported research conducted at universities and research 
laboratories.
    The National Science Foundation is the primary source of 
federal funding for nonmedical basic research. NSF funds 12,000 
competitive grants a year and supports the work of over 375,000 
scientists, engineers, educators, and students across the 
country.
    Basic and fundamental research is about good jobs and a 
secure future. Americans face enormous challenges, and NSF has 
a role to play in helping address them. Through research and 
activities supported by the NSF, we have the opportunity to 
boost our economy, enhance our national security, strengthen 
our cybersecurity infrastructure, and create a STEM-job-
pipeline-ready workforce.
    The purpose of today's hearing is to provide an overview of 
the National Science Foundation's research and STEM education 
portfolio and priorities, and to update the Committee on 
oversight matters. In January, the American Innovation and 
Competitiveness Act was signed into law, a bill that 
reauthorized many of the activities at NSF and reformed 
programs to maximize the nation's investment in research.
    I am proud that the bipartisan law resulted from the work 
my Subcommittee and this Committee conducted last Congress, and 
I'm pleased that a bill I sponsored, the Research and 
Development Efficiency Act, who I worked with my colleague here 
Mr. Lipinski on, was included, which will help reduce the 
regulatory burden on scientists and universities. This bill 
also included a number of provisions to improve the 
coordination of STEM education programs across the federal 
government and promote inclusion in the STEM fields.
    Last week, the President signed into law two additional 
STEM-related bills, which originated with this Committee, that 
will help the next generation of young women have greater 
opportunities to pursue careers in the STEM fields that are 
central to our 21st century economy. We had the INSPIRE Act, 
which authorizes NASA to encourage young women to study the 
STEM fields and to pursue careers that will further advance 
America's space missions. And the other bill was the Promoting 
Women in Entrepreneurship Act, which was authored by my 
colleague Ms. Esty, which promotes women and jobs in STEM 
fields through the NSF. And we are pleased to have finally 
gotten those through the Senate because we passed them last 
Congress but they didn't make it through the Senate, so I am 
glad we were able to move forward with those.
    Dr. Cordova, I look forward working together on these 
efforts, and particularly in STEM and cybersecurity. And, Ms. 
Lerner, I also greatly value the work of the Office of 
Inspector General. Your work and recommendations have led to 
millions of dollars saved, protecting the taxpayers' investment 
in research. I look forward to hearing more from both of you 
about your priorities for the coming year and about how we can 
work together to maintain our nation's leadership in 
innovation.
    I know we all have innovative STEM initiatives in our 
districts that provide models for others. I just wanted to 
mention a few that I have had and recently visited in my 
district. K2M, which is a medical device company, has an 
Innovation Challenge Program that they're working on with their 
local schools. They're getting young people in ninth grade to 
have a semester-long program working with them and mentoring 
them; they pair up with somebody at the company to find out 
more about the engineering field of medical device technology. 
They particularly work on scoliosis and the sort of hardware 
that helps medically deal with that problem.
    I have VISA, who is partnered with Women in Technology and 
the STEM for Her program, which are putting on programs in my 
district, specifically designed for young women to get engaged 
in STEM subjects.
    So I encourage other members of this Committee to take 
these opportunities and all the opportunities that you all are 
providing through your good work to make sure we're getting all 
these programs out to our young people. And again, I'm pleased 
that we have a group of our young people here for this 
appropriate hearing for you.
    [The prepared statement of Chairwoman Comstock follows:]
    [GRAPHIC] [TIFF OMITTED] T5096.003
    
    [GRAPHIC] [TIFF OMITTED] T5096.004
    
    Chairwoman Comstock. And with that, I look forward to 
hearing the testimonies of our guests, and I now recognize the 
Ranking Member, the gentleman from Illinois, Mr. Lipinski, for 
an opening statement.
    Mr. Lipinski. Thank you, Madam Chairwoman. And welcome to 
our distinguished panel. I'm glad we're having this hearing to 
get an update on the important work that's being done at the 
National Science Foundation. I want to thank Dr. Cordova for 
her leadership at the Foundation. A few weeks ago, we had a 
number of NSF grant recipients here, and we had a chance to 
hear about and see some of the breakthrough research and 
innovations. This was only a small sample but a great 
demonstration of the excellent work facilitated by funding from 
the NSF.
    The federal government is uniquely positioned to fund 
world-class research, especially high-risk, high-reward 
research that leads to transformative discoveries and 
innovations that drive our economy forward. In doing so, the 
National Science Foundation plays a vital role not only 
advancing the U.S. scientific enterprise but also in shoring up 
our nation's ability to compete in an increasingly technology-
driven and dynamic global economy.
    Funding for NSF has not been what I would like to have seen 
in recent years. I think many of my colleagues agree. This 
Committee needs to push to make NSF funding a priority in this 
Congress as we face possible significant budget cuts. While we 
do this, we also need to make sure that NSF does the most 
possible with limited resources, and we'll get to some of that 
in today's hearing.
    I believe it's also important that Congress does not make 
the mistake of changing the funding priorities of the 
scientists at the NSF. The social sciences in particular make 
key contributions to critical national and global challenges. 
You've heard this from me many times before, but it's worth 
repeating. Social scientists are showing us the human factors 
involved in developing effective cybersecurity. This Committee 
is working on strengthening cybersecurity in the federal 
government, and we need the input of social scientists to do 
this.
    Additionally, NSF-funded social science research into 
cross-cultural nonverbal communication, which was presented to 
this Committee in 2011, helped the Army improve the way it 
trains its soldiers and lessen conflicts with foreign citizens. 
These are just a few examples of the value of social science 
research, which is only a small but very important portion of 
the NSF budget.
    Regardless of the field of research, the work at the NSF 
does not stop at the laboratory bench. Programs like the NSF 
Innovation Corps or I-Corps and the SBIR STTR program aim to 
help scientists bring NSF-funded research to market. I-Corps 
provides researchers with the education, mentoring, and 
networking necessary to begin the process of commercializing 
their research. And SBIR STTR provides funding to help small 
businesses transition NSF innovations to commercial products. I 
was proud to help lead the effort to authorize the I-Corps 
program in the American Innovation and Competitiveness Act 
which passed last Congress and was signed into law in January. 
I am also a strong supporter of the SBIR.
    As we review the important work going on at the NSF, I'd 
like to hear about NSF's plans for participation in the 
interagency working group on research regulation establishing 
the AICA legislation, as the Chairwoman mentioned. It doesn't 
make sense for eminent scientists to be spending 42 percent of 
their time complying with federal research regulations. I have 
been a champion of this issue for years and was glad to see 
some of the language from the bill I introduced last Congress 
incorporated in the AICA.
    I look forward to hearing about the progress NSF has made 
in implementing a number of provisions of the AICA that address 
management challenges that have been the topic of hearings 
before this Committee. I'm confident that NSF will take the 
necessary steps to implement the policy changes in the law. 
This hearing is a good opportunity to check in and see how 
things are going, although I know it's very early.
    Finally, I was pleased to learn that the NSF has made 
significant progress in increasing accountability in its 
management of large research facilities, lowering the cost of 
Intergovernmental Personnel Act appointments for rotating 
staff, and preventing research misconduct. I'm eager to learn 
more about how the agency is protecting our investment in 
research in these areas.
    Thank you again to Dr. Cordova and Ms. Lerner for being 
here. I look forward to your testimony, and I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. And I now recognize the Chairman of 
the full Committee, Mr. Smith, for his statement.
    Chairman Smith. Thank you, Madam Chairwoman.
    For nearly 70 years, the National Science Foundation has 
served as the basis of taxpayer-funded basic research. Since 
its creation in 1950, NSF's mission has been to promote 
fundamental scientific discovery in the national interest, 
which helps make the United States a world leader in knowledge 
and innovation.
    Our challenge this year is to set funding priorities that 
ensure America remains a leader in the global marketplace of 
ideas and products, while also recognizing budgetary limits. A 
full reauthorization of the science agencies under our 
jurisdiction, including NSF, will allow us to rebalance 
priorities and ensure that our nation's science agencies are on 
a trajectory to keep America at the forefront of scientific 
knowledge and discovery.
    The Committee finished last year by completing work on the 
American Innovation and Competitiveness Act, which reauthorized 
some of NSF's activities. These include STEM education 
initiatives, entrepreneurship programs, the BRAIN Initiative, 
and others. In fact, on January 6, it was the last bill signed 
into law for the 114th Congress.
    The new law also reforms federal science agency programs to 
increase the impact of taxpayer-funded research. It improves 
accountability and transparency, reduces administrative burden 
on researchers, enhances agency oversight, and improves 
research coordination.
    I want to recognize Dr. Cordova for the steps NSF has taken 
to improve accountability over the last two years.
    In the past, I have been critical of NSF for funding of too 
many projects that seem marginal or frivolous. My concern is 
that low-risk, low-priority projects detract from investments 
into groundbreaking research that includes biology, physics, 
computer science and engineering.
    The new law makes permanent and enhances NSF's transparency 
and accountability policy so that it describes in nontechnical 
terms the research projects it funds. The law also improves the 
NSF grant-making process. It affirms that research funded 
through the merit-review selection process must be in the 
national interest by meeting one of seven broader impact goals. 
These goals include increasing economic competitiveness, 
enhancing the health and welfare of the American public, 
developing a STEM workforce, and supporting the national 
defense. I hope these reforms will prevent future cost overruns 
and the use of taxpayer funds for the wrong ideas and subjects.
    I look forward to hearing from Dr. Cordova and Ms. Lerner 
about how the implementation of these reforms is proceeding and 
about the progress the NSF has made to be more accountable to 
taxpayers. I believe there has been noticeable improvement, but 
oversight challenges remain.
    The Inspector General's last report to Congress identified 
several areas in need of improvement or monitoring. These 
include NSF's management of rotator personnel; the Foundation's 
move to a new headquarters building in Alexandria, Virginia; 
NSF's management of the U.S. Antarctic Program; and its efforts 
to improve grant administration and encourage ethical conduct 
in research. I look forward to hearing more about these 
challenges and how we can work together to address them.
    Finally, I want to acknowledge that, last week, President 
Trump signed into law two bipartisan Science Committee bills to 
promote the role of women in science: the INSPIRE Women Act, 
sponsored by Chairwoman Comstock; and the Promoting Women in 
Entrepreneurship, sponsored by Ms. Esty. These laws enable more 
talented young women to pursue their dreams and change the 
world with their ideas. NSF's support for groundbreaking basic 
research and STEM education can greatly help in making America 
prosperous.
    Thank you, Madam Chairwoman, and yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, Mr. Chairman.
    And I now recognize the Ranking Member of the full 
Committee for a statement, Ms. Johnson.
    Ms. Johnson. Thank you very much, and thank you, Ms.--
Chairwoman Comstock and Ranking Member Lipinski, for holding 
this hearing. And I welcome back to our distinguished witnesses 
Dr. Cordova and Ms. Lerner.
    This hearing is an opportunity to introduce some of our new 
Members to the mission and operations of the National Science 
Foundation and to review progress on some longstanding 
oversight issues.
    The National Science Foundation was established by Congress 
in 1950 to promote the progress of science. Those very words 
are written into the enabling and enacted legislation. For more 
than six decades, America's scientists and engineers have been 
submitting their best and most creative ideas to the Foundation 
for funding. For more than six decades, the Foundation has 
required that every one of those proposals undergo merit review 
by scientific peers in order to select and fund the best of the 
best. This is the case for all fields of science and 
engineering supported by the Foundation, from physics and 
biology to Earth systems science to the social, behavioral, and 
economic sciences. The enacting legislation also established 
NSF to advance the national health, prosperity, and welfare and 
to secure the national defense.
    These words also are central to NSF's mission. The intent 
was not that every grant would be required to meet those 
particular criteria. The guiding rule of basic research is that 
you should not be constrained to a particular path or a 
particular application. To be constrained in what research is 
pursued is to fail to ask the most fundamental and compelling 
questions in science and engineering. To fail to ask the most 
fundamental and compelling questions is to miss out on the 
truly transformative scientific and technological 
breakthroughs. The intent since 1950 has been just that, in the 
aggregate.
    The taxpayers' investments in NSF would help contribute to 
a more secure and prosperous nation, and the record shows that 
they certainly have. This is as true for the social and 
behavioral sciences as it is for the physics and engineering.
    This hearing is the first of two hearings this Committee 
will hold before moving legislation to authorize appropriations 
for the National Science Foundation and to take a fresh look at 
the Foundation's 1950 Organic Act.
    While Congress has passed minor amendments to the 1950 act, 
the central mission of the Foundation and the Foundation's 
reliance on competitive peer review to identify and fund the 
best proposals have remained untouched. In short, the 1950 act 
has proven remarkably durable and worth preserving.
    Over the last few years, we have had vigorous debates in 
this Committee about the National Science Foundation's mission 
and about the process for selecting and funding the best and 
most worthy grant proposals. In the bipartisan American 
Innovation and Competitiveness Act signed into law by President 
Obama in January, we arrived at a compromise that reaffirmed 
the National Science Foundation's gold standard merit review 
process, while ensuring transparency and accountability in 
their grant decisions. This was a good outcome for U.S. science 
and for the taxpayer.
    As we consider additional NSF legislation this Congress, I 
hope that all of us sitting here behind the dais will truly 
listen to the experts sitting before us, and perhaps more 
importantly, to the experts across the science and engineering 
community who constitute the lifeblood of U.S. innovation and 
competitiveness.
    Once again, I want to welcome and thank the witnesses 
before us today, and I look forward to your testimony and to a 
fruitful discussion about NSF's progress on a number of 
oversight issues.
    And I yield back. Thank you.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. I'll now introduce our 
witnesses. Our first witness today is Hon. France Cordova, 
Director of the National Science Foundation. Dr. Cordova was 
sworn in as Director of the NSF in March 2014. She is President 
Emerita of Purdue University where she served as President from 
2007 to 2012. From 1993 to 1996, she served as the Chief 
Scientist at NASA, and she is the recipient of NASA's highest 
honor, the Distinguished Service Medal. Dr. Cordova has a B.A. 
from Stanford University and a Ph.D. in physics from the 
California Institute of Technology.
    Our second witness today is Ms. Allison Lerner, Inspector 
General for the National Science Foundation. Before joining NSF 
in April 2009, she served in many leadership positions at the 
Department of Commerce, including Counsel to the Inspector 
General. She has received several national awards for 
excellence, and in 2015 was appointed to serve as Vice Chair 
for the Council of Inspectors General on Integrity and 
Efficiency. Ms. Lerner received her law and undergraduate 
degrees from the University of Texas.
    I now recognize Dr. Cordova for five minutes to present her 
testimony.

                TESTIMONY OF DR. FRANCE CORDOVA,

          DIRECTOR, NATIONAL SCIENCE FOUNDATION (NSF)

    Dr. Cordova. Thank you, Chairwoman Comstock, Ranking Member 
Lipinski, Chairman Smith, and Ranking Member Johnson, and 
Members of the Subcommittee. I'm pleased to speak to you today 
about the National Science Foundation.
    From our beginning almost 70 years ago, NSF has operated in 
concert with the National Science Board under an extraordinary 
mandate: to promote the progress of science; to advance the 
national health, prosperity, and welfare; to secure the 
national defense.
    NSF has an annual budget that is currently $7.5 billion. We 
operate as a lean agency with low overhead. Fully 93 percent of 
our budget goes to support research and education. Eighty-five 
percent of that goes to universities and colleges across the 
country, including community colleges, all of it decided by 
merit review.
    While our annual budget represents just four percent of the 
total federal budget for research and development, it accounts 
for 1/4 of the total federal support for basic research 
conducted at U.S. colleges and universities. In some fields 
like computer science we're the predominant support for 
academic research. NSF is the only federal agency that funds 
fundamental science--high-risk, long-term, curiosity-driven 
research--over nearly all fields of science and engineering.
    The history of NSF is a history of profound discoveries. 
Last year, the first detection on Earth of gravitational waves 
were made following NSF's sustained investment for 40 years and 
revealing the existence of large binary black holes. We have 
funded the research of 223 people who went on to win the Nobel 
Prize.
    Our mission--to fund high-risk fundamental research--has 
yielded significant innovations with tremendous impact; for 
example, artificial intelligence, 3-D printing, technologies 
integral to the Internet and the iPhone, lifesaving tools and 
therapies essential to our nation's hospitals, discoveries that 
have had a profound impact on our nation's economy, security, 
and health.
    NSF's mission requires being responsive to the national 
needs and changing landscape of science and engineering, and 
this means having the flexibility to continue investing in 
fundamental research that creates new knowledge in critical 
areas such as cybersecurity. This also means sustained 
investment in developing a STEM-capable workforce, which can 
adeptly navigate the workplaces of the future. We don't know 
where the next groundbreaking discovery will come from, nor who 
will make it.
    NSF and the National Science Board have worked closely with 
Congress, the Office of the Inspector General, the science 
community, industry, and outside experts to be responsive to 
priority-setting for our programs, to make internal 
improvements such as increased transparency and accountability, 
and to be focused increasingly on the management of our large, 
major user facilities.
    The agency works closely with a wide array of partners to 
leverage its funding, as shown in this slide.
    [Slide.]
    Dr. Cordova. NSF recently fashioned a long-term research 
agenda to push the boundaries of knowledge in the form of 10 
big ideas. It's a powerful vision that will ensure future 
generations continue to reap the benefits of fundamental 
science research. Investing in this strategic agenda, coupled 
with our sustained funding of current core programs, will 
ensure that our country leads in discovery, innovation, and 
impact.
    And speaking of impact, I'd like to close with a short 
video that shows but a few of the impacts of NSF's 
contributions to society.
    [Video shown.]
    Dr. Cordova. I think you can see that NSF's mission of 
investing in scientific discovery and discoverers bolsters our 
economy and security and keeps us a great nation. Thank you. 
And I'd be happy to answer any questions.
    [The prepared statement of Dr. Cordova follows:]
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Now, we'll hear from Ms. Lerner, five 
minutes.

                TESTIMONY OF MS. ALLISON LERNER,

                       INSPECTOR GENERAL,

               NATIONAL SCIENCE FOUNDATION (NSF)

    Ms. Lerner. Thank you, Chairwoman Comstock, Ranking Member 
Lipinski, Chairman Smith, and Ranking Member Johnson, and 
Members of the Subcommittee. As requested, my testimony will 
provide an oversight update, discuss continuing management 
challenges, and outline the Foundation's progress toward 
addressing OIG recommendations.
    I will focus on three of NSF's top management challenges: 
ensuring accountability over large cooperative agreements, the 
management of the Intergovernmental Personnel Act program, and 
the need to ensure the ethical conduct of research.
    With respect to the first challenge, NSF uses cooperative 
agreements to construct its largest and riskiest projects. 
Since 2010, my office has issued 28 reports containing more 
than 80 recommendations related to NSF's use and management of 
cooperative agreements. As a result of this work, NSF has 
developed new policies, procedures, and guidance which 
represent important steps towards accomplishing the goal of 
increased accountability over such projects.
    While NSF's actions led to the removal of a significant 
deficiency on NSF's monitoring of large cooperative agreements 
from the agency's 2016 financial statement audit, the 
Foundation's work in this area is ongoing. My testimony will 
highlight recommendations related to incurred cost submissions, 
earned value management systems, lifecycle cost surveillance, 
and management fees, all of which remain open and are critical 
to NSF's ability to enhance accountability over its large 
facility projects.
    Incurred cost submissions provide information that is 
critical for adequate stewardship of federal funds. We have 
recommended that NSF require these submissions annually for 
projects valued at $50 million or more. NSF has developed a 
tool to collect expenditure data, which is currently being 
tested. When awardees start using this tool, we will evaluate 
the data provided and NSF's actions in response to that 
information.
    We have also recommended that NSF require awardees to 
certify their earned value management systems, which provide 
critical information about a project's schedule and cost and 
validate the data awardees submit to such systems. We are 
currently reviewing new guidance NSF has developed to address 
these recommendations.
    Because our work has identified risk across the lifecycle 
of NSF's large facility projects, we recommended that NSF 
increase end-to-end cost surveillance for such projects, 
including obtaining current cost estimates and ensuring that 
awardees' accounting systems can properly handle federal funds. 
NSF has developed new policies and procedures to address these 
recommendations and has agreed to have a third-party evaluate 
their implementation.
    With respect to management fees, our audits found that NSF 
did not obtain support from awardees to determine the need for 
such a fee and did not review the changes--charges awardees 
paid using management fee. We have recommended that NSF require 
awardees seeking such fee to detail all the sources of revenue. 
NSF is revising its management fee policy but has not committed 
to implementing this recommendation.
    Moving forward, we will examine how NSF is applying its new 
policies and procedures for both construction and operations 
awards and pay close attention to NSF's actions in response to 
new oversight requirements in the American Innovation and 
Competitiveness Act. A key contributor to the progress that has 
been made in this challenge has been the Stewardship 
Collaborative, which was established by OIG and NSF in 2010 as 
a collaborative effort to help accomplish the shared mission of 
proper stewardship of the taxpayers' investment in science.
    The second challenge I will address relates to NSF's use of 
temporary personnel under the Intergovernmental Personnel Act. 
NSF regularly brings IPAs to NSF under rotational assignments 
of up to four years. Since IPAs serve in a temporary capacity, 
there is significant turnover in staff at NSF, especially in 
executive positions. The Foundation's use of IPAs also comes at 
a high cost. In 2015, NSF paid nearly $8.9 million for 27 
executive-level IPAs.
    Finally, because IPAs remain employees of their home 
institutions while at NSF, most come to the Foundation with 
known conflicts of interest, which must be identified, managed, 
and mitigated. We have made recommendations to reduce costs 
associated with IPAs and to strengthen controls over their 
conflicts. NSF has begun to take steps to reduce IPA costs and, 
among other things, no longer reimburses IPAs for lost 
consulting income. Moving forward, we plan to examine NSF's 
actions in response to our IPA-related recommendations, as well 
as its actions in response to the Competitiveness Act, which 
required the Foundation to report on its efforts to reduce IPA 
costs.
    The third challenge relates to the need to ensure the 
ethical conduct of research. Research misconduct, defined as 
plagiarism, fabrication, or falsification in proposed or funded 
research, damages the scientific enterprise, is a potential use 
of--misuse of public funds, and undermines the trust of 
citizens in government-funded research. It is therefore crucial 
to the integrity of research funded with taxpayer dollars that 
NSF-funded scientists adhere to the highest ethical standards. 
NSF takes research misconduct seriously and has been responsive 
to our recommendations.
    My office will continue to utilize the full range of our 
audit and investigative resources to exercise robust oversight 
of NSF stewardship of federal funds and to safeguard the 
integrity of the Foundation's operation. Public trust and 
confidence demand the highest level of accountability, and we 
look forward to working with NSF management, the National 
Science Board, and Congress to achieve this goal.
    Thank you, and I am happy to answer your questions.
    [The prepared statement of Ms. Lerner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you.
    And I now recognize myself for five minutes for questions.
    Dr. Cordova, as I mentioned in my opening statement, I'm 
very interested in the investments that NSF is making in 
cybersecurity research and education, and obviously, we are 
seeing that is a growing area where we need to make sure that 
our country is on the cutting edge so that we can protect all 
of our assets, whether they're financial, military, and 
otherwise.
    I see there are some more students here, right? Do have 
some students here, another group, because we had one earlier? 
I wanted to recognize you and thank you. What school are you 
all from? Lake Braddock? Oh, great. So they might be yours, Mr. 
Beyer's, or some of Mr. Connelly's.
    Okay. Great. Well, very nice to have you here. 
Cybersecurity is an area you can all study, right? Lots of good 
jobs there. Sorry, I'm off track here.
    But anything you might be able to tell us on how NSF can 
best work with industry to make sure that cyber education 
programs match the workforce needs and to make sure that we are 
really responding to this, you know, great need and sort of the 
crisis we have in having a cyber workforce.
    Dr. Cordova. Thank you for your question, Chairwoman 
Comstock. Let me take this opportunity to say welcome to the 
students, and I hope that eventually you will apply for an NSF 
grant.
    Cybersecurity and all things cyber is really the theme of 
our age. When I was the student's age, we didn't have nearly so 
much cyber to utilize and do good things for us, nor to also 
pose the kinds of threats that it does today.
    We were very pleased to see Congress' interest in some of 
the programs that we have like Computer Science for All and our 
CyberCore programs. Those are two of them. I just want to say a 
couple of words about each. Computer Science for All has the 
goal of preparing students for 21st century jobs. NSF has a 
plan with other agencies too. We do this through our education 
directorate and also our computer directorate to encourage 
teacher training in computer science in K-12, and to encourage 
all students to take computer science because we think that 
this--combined of course with English and reading and 
mathematics studies--will make them prepared to do anything.
    As a consequence of these programs, NSF is investing in 
activities to advance effective teaching and learning of 
computer science. We are supporting the design of instructive 
materials and scalable and sustainable professional development 
models and resources.
    We also have a program called CyberCorps, which we do with 
a couple of other agencies. We do it with the Department of 
Homeland Security and the Office of Personnel Management, and 
we work closely to monitor trends in the availability of 
positions in government and evolving needs in the preparation 
of cybersecurity experts. Every year we hold a jobs fair in 
January, and this was well attended by some Congressmen and a 
Senator as well. There we hear from agencies across the 
government about their needs, and we try to match students who 
are prepared to take these jobs with those availabilities. 
Those are just some of the indications.
    Of course, you mentioned industry, Chairwoman Comstock, and 
we have a lot of programs with industry that are very excited 
about pioneering new methods of including cybersecurity grants 
to go along with their needs for their industries.
    Chairwoman Comstock. Great. Now, on another area in terms 
of veterans and transitioning them to STEM careers, I wanted to 
see how NSF is tracking veterans and the hiring of veterans, 
and if you are able to give us--can you add a box to the form 
so we know how many veterans are actually getting grants or how 
much they're involved in the STEM careers where you're working 
with veterans? Do you have an estimate on veterans' 
involvement?
    Dr. Cordova. I can prepare a better answer for you that 
would follow this hearing because I don't know all the details.
    I am aware of an event because I've participated in it 
where we fund veterans as graduate students and we bring them 
to the agency to talk about what they do how they're 
transforming their lives. This is a very special Veterans Day 
event to see the effect that it's had on graduate students, and 
to hear that one time when they were in the desert and looking 
up at the stars they decided that when I'm finished with my 
assignment I'm going to be an astronomer, that sort of thing. 
They are doing all sorts of STEM-related graduate studies. I 
know that we have other programs for veterans, and I'll be 
happy to supply that information later.
    Chairwoman Comstock. Great. Thank you.
    And I now recognize Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. Dr. Cordova, I just want to--I'm 
going to ask a very sort of high-level question, but I think 
it's important to understand--for everyone to understand how 
the NSF develops--or how the research budget across the 
different directorates in the NSF--the offices in NSF is 
developed so we all have a good understanding of how the 
priorities are established within and across the directorates. 
Could you give the thumbnail sketch of that?
    Dr. Cordova. There are many, many inputs in setting 
research priorities for each of the directorates and for the 
agency as a whole. Those inputs can come from Congress itself, 
from the White House, and clearly from the science and 
engineering communities. The National Academy plays a big role 
as well. In some cases they have studies which they call 
decadal or ten-year studies that take a year or more to do, and 
they set out the priorities for particular fields. We are very 
responsive to all the input that we get.
    After that, we have to make decisions with the leadership 
and the staff about what directions look like they're current, 
and that we're getting a lot of input on, to pursue and weigh 
what the budget is that we have in order to look for a balance 
across the agency to support all fields of STEM engineering. 
Because, as I said in my opening remarks, we don't know where 
the next discovery will come from, nor who will make it, and so 
we want to be sure that we support all of science and 
engineering.
    Mr. Lipinski. And in regard to--my understanding is there's 
much more that is being done now across directorates, across 
fields. Is that----
    Dr. Cordova. Yes.
    Mr. Lipinski. --accurate?
    Dr. Cordova. Yes, absolutely. We do a lot of cross-
directorate projects. A good example would be our food, water, 
energy systems studies because food, water, and energy are 
vital to our economy and the whole globe. Another cross-
directorate initiative would be our Risk and Resilience 
Initiative. We have a lot of risks from earthquakes and floods 
and hurricanes, all kinds of phenomenon, and we want to be sure 
that citizens are prepared enough to perhaps mitigate or 
prevent some of these from happening with such devastating 
consequences.
    I showed a slide of NSF's 10 big ideas, and all of those I 
would say represent cross-directorate pursuits of the really 
big research areas where we can make an impact on our future.
    Mr. Lipinski. And finally, the impact that we see from 
research in the social and behavioral sciences--I know that's 
something, as you know, that I have often talked about here 
because the importance--even though it's a very small part of 
the NSF budget. Are there any of the--are there any grand 
challenges in social and behavioral sciences that you can talk 
about here?
    Dr. Cordova. Well, I think we saw in the video a whole lot 
of them to do with national security. In any endeavor where 
there are people involved, either as individuals or as groups, 
the social sciences become very important. So cybersecurity has 
already been mentioned a number of times this morning, and I 
know you've had hearings on cybersecurity and you've learned 
that--we've all learned that much of our cybersecurity depends 
on individuals and their responses to make us secure.
    I can't think of a sphere of human endeavor that doesn't 
really need social sciences to inform it. One of our big ideas 
is called the Human Technology Frontier. We know that, as we're 
speaking, that life is changing, the way that we work and we 
play, how we educate ourselves. It is changing because of 
technology. How do we confront that technology? How do we shape 
it in order to do good for us and to really make it useful and 
helpful depends a lot on social sciences and behavioral 
studies.
    So I think it's actually perhaps one of the most important 
things that we invest in because it touches all aspects of our 
lives.
    Mr. Lipinski. Thank you. I yield back.
    Chairwoman Comstock. Thank you. I now recognize Mr. 
Abraham, the Vice Chairman of the Subcommittee, for five 
minutes.
    Mr. Abraham. Thank you, Madam Chair. I thank the witnesses 
for being here.
    I'm a physician by trade, and when I read a journal or a 
scientific article, unfortunately, the first thing I go to is 
the author and the research, whether he or she has in the past 
given a reliable data, and it goes back to our research 
integrity that, Ms. Lerner, you referenced that over the last 
four years there's been 175 cases of misconduct in NSF 
researchers, and that is a major concern because we base policy 
on this research.
    My question is what recommendations have you made to the 
Secretary as to trying to clean up this research integrity or 
lack thereof?
    Ms. Lerner. Thank you, sir. Each time our office conducts 
an investigation into research misconduct and determines that 
there actually was research misconduct, we make recommendations 
to the foundation to try to protect its interest. Depending on 
the magnitude of the problem, the recommendations can range 
from requiring the individuals when they submit future 
applications to certify and ensure to NSF that they are not 
plagiarizing or falsifying or fabricating data. That can 
include requiring taking training and----
    Mr. Abraham. So I assume the last four years----
    Ms. Lerner. --responsible conduct of research----
    Mr. Abraham. --you have made 75 recommendations?
    Ms. Lerner. Yes.
    Mr. Abraham. Now----
    Ms. Lerner. And sometimes----
    Mr. Abraham. --how many of those have been actually done?
    Ms. Lerner. The agency has a very strong track record of 
affirming our----
    Mr. Abraham. Good.
    Ms. Lerner. --recommendations, including debarring some of 
the worst offenders from receiving federal funding.
    Mr. Abraham. Doctor, do you want to comment or----
    Dr. Cordova. We take this incredibly seriously. In fact, 
Ms. Lerner and I meet every month, at least once a month, and 
the very first thing we do is look at these research misconduct 
examples and say how well we're doing in responding to the 
recommendations.
    Let me also just give a point of view from being a past 
President of two universities that at the university this is 
also taken----
    Mr. Abraham. Oh, I think it would be.
    Dr. Cordova. --incredibly seriously. So we work in concert 
with the universities, as Ms. Lerner knows well, in order to 
make the punishment fit the crime if you know what I mean.
    Mr. Abraham. I do----
    Dr. Cordova. We have to be careful there.
    Mr. Abraham. And I appreciate that perspective because it's 
not only in the NSF. It's unfortunately across all scientific 
borders. But again, because we are responsible for funding, it 
becomes a point of accountability.
    So that'll transition us somewhat to the STEM discussion 
that is so important. We have students here. And we know the 
federal government for decades has been involved in STEM 
research, but unfortunately, we on the STEM side for our 
students seem to be falling further and further behind. We know 
private industry needs them, we know government needs a STEM 
student to step up and take the baton and do great things, as 
you mentioned in your video.
    So my question to you, Doc, is, how can we assure the 
public that hopefully is listening to some of this that their 
investment in the NSF first in research is actually going to 
work?
    Dr. Cordova. We are almost unique among agencies in really 
tying the research very closely with our educational mission. 
So that mission is really to encourage STEM education and 
development of a STEM workforce. We have--we spend over $1 
billion a year on the educational mission, and we have programs 
in graduate school, undergraduate, K-12, teacher training 
programs, curriculum development programs in order to encourage 
it.
    What we really need to do--and that was emphasized in the 
two bills that were recently passed----in Women in Science and 
Women in Entrepreneurship--is that we need to encourage women 
and underrepresented minorities in general to be role models 
and to encourage everyone to go into STEM careers.
    Just this morning, I read in our NSF News Notes about a 
young woman at Stanford University, which is where I was an 
undergraduate, who went into a classroom to take a computer 
science course, to sit in there and see if she would stay, and 
there were only two other women in the class so she didn't stay 
in that classroom. And I had exactly the same experience when I 
was a student, went to a physics class. I was the only woman in 
the class. So it took me a long time to get back into physics.
    These things really make a difference when you can see 
people who are like yourself, whether they're in the classroom, 
whether they're standing in front of you being a teacher or 
whether they're in informal learning programs that we have at 
museums and elsewhere, on television shows.
    Mr. Abraham. Okay. Thank you, Madam Chair.
    Chairwoman Comstock. Ms. Johnson is recognized for five 
minutes.
    Ms. Johnson. Thank you very much.
    Dr. Cordova, over the years there have been a number of 
questions about the peer-review process and the National 
Science Foundation has been very responsive in holding meetings 
and bringing groups in to listen to what processes it's used. 
And because of that, I've had hardly any questions recently 
about this gold standard, but I would like you to review that a 
little bit for the Committee, the process by which you use to 
determine the grants that you fund.
    Dr. Cordova. Sure. Thank you. I think you all have a 
booklet in front of you. If you turn to page six of your 
booklet so that in case you forget everything I say here, it's 
there. So merit review is just so critical to everything the 
NSF does because all of our grants are given through a merit 
review process.
    And so what does that look like? In short, it means that 
every proposal is reviewed by a minimum of three external 
people. And usually it's ten or a dozen people. And they're 
reviewed first separately, and then those reviewers most often 
come together in a panel meeting at NSF headquarters and talk 
with each other about the merits of the proposals. The merit 
reviewers go through a training course. Now, we have a new 
pilot program that has all kinds of things in it to up their 
game, to give better feedback to proposers of what--for 
example, may not be funded, and how to improve their proposals.
    We take this process incredibly seriously. In fact, it was 
a surprise to me when I came to NSF that on any given day, 
between 200 and 600 visitors, external scientists and 
engineers, are coming in through the door, and if you just 
happen to come at the wrong time, know that you have to wait a 
long time for the elevator as I did this morning to go to these 
panel rooms and to talk about the individual proposals. They 
give them very serious consideration.
    They then make a recommendation to the program officer, who 
takes these recommendations from all the proposals and all the 
different groups and has then to come up with a balanced 
program. That means one that's nonduplicative, that is really 
looking, at the national interest, according to the goals of 
that program officer's program and the larger goals of the 
whole division, and ask does the recommendation make sense in 
the context? Then it is the program officers' responsibility to 
forward a recommendation, or not, to the division director, who 
then signs off on the proposal.
    This is a gold standard I have to underline. It has been so 
well reviewed. We have committees of visitors, 50 of them in 
all different subject matters in any given four-year period who 
come in and review the merit-review process itself and make 
suggestions for recommendations. It is widely copied by other 
countries.
    Ms. Johnson. Thank you very much. Now, there's a hiring 
freeze on. How has this affected you so far or has it at all?
    Dr. Cordova. Well, yes, it has affected us, especially 
because we're relocating soon. This summer, we're going to 
Alexandria where the headquarters will be moved. And so with or 
without a hiring freeze there is just a natural attrition that 
goes on when you move. Clearly--so that Mr. Beyer is not 
worried--we'll have others that come in and want to join NSF 
and will find Alexandria the very best place to live and work.
    It does put a stress at this particular time because we 
have a hiring freeze, and so if we lose people, we can't 
backfill them unless they have emergency kinds of positions. So 
we do have concern about that.
    But we have a good agency. If you looked at the Federal 
Employee Viewpoint Survey, you see that we made number 10 among 
all medium-size agencies this year on satisfaction of the 
workforce. By and large, we're good at holding onto people. 
It's a balance. Are we worried? Yes. Are we overly concerned? 
No. We're hopeful that we'll get past the hiring freeze and 
that we will be able to fill these positions, which are 
critical for science and engineering.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairwoman Comstock. Thank you. And actually, since we're 
on that topic, just if I can ask a little bit more on that 
area. What kind of outreach--because I do have constituents 
obviously who are there, too. And what kind of outreach are--is 
being done with folks as you have the transition and as people 
are maybe making that--if they're coming for my part of the 
area, that's a little further commute, so what are you seeing 
in terms of expectations?
    Dr. Cordova. That's right. I really have to commend the 
group, our Office of Information and Resource Management, led 
by Joanne Tornow and Brian McDonald and her group in 
particular, who leads the relocation effort. The whole team has 
just really put a lot of effort into having weekly messages 
through our NSF weekly wire to staff to hosting workshops and 
open houses in-house. Recently, on Monday, they brought in a 
lot of the enterprises from Alexandria like the condos and 
restaurants et cetera with all sorts of information so that the 
staff could see that.
    We have the head of our union here at this hearing, and he 
has worked very hard with the union to ensure that the 
negotiations go very smoothly over various important things, 
and we are just in the last phases of that now. And so I think 
the whole thing has gone on with a lot of effort and constant 
attention to the staff and their needs and getting to pick out 
their offices, their space, and how that looks and so on. I 
think it's gone very, very well, and I'm just very, very proud 
of NSF. It's a very big deal to move 2,200 people or so, even 
if it is just 9 miles away. There's a lot of planning that's 
gone into it. It'll take six weeks in fact for us to fully do 
that move.
    Chairwoman Comstock. Okay. Thank you for letting me address 
that, a little bit of a parochial issue. Now, I will also 
recognize Mr. Webster for five minutes.
    Mr. Webster. Thank you, Madam Chair.
    I was interested in what Mr. Abraham said about us spending 
lots of money over several decades trying to attract people 
into STEM. I guess this would be for Dr. Cordova. And yet we're 
always told we're way behind, keep falling further and further 
behind. Are there any studies being done to understand what 
works and what doesn't work? I mean, we were told here a couple 
weeks ago that every time there was a space launch, there would 
be lots of people headed towards a career just because of that. 
And one person told me, who's a Member of Congress, he was 
attracted by Star Wars movies. So I just wondered if there's 
any kind of proven way that we can draw new people into STEM 
fields?
    Dr. Cordova. We have made big investments in trying to 
understand this better, and the best way to draw them in is to 
first provide access and to make sure that they can see, and 
talk with scientists, engineers, and have good curriculum, good 
teachers in their classrooms.
    We are so concerned, Mr. Webster, with this question that 
when I came into the agency, we started a new program called 
INCLUDES, NSF INCLUDES. That's an acronym, but it's an acronym 
that means what it says. And we are now funding 40 pilot 
programs across the nation to try to move the needle in STEM 
and have communities of learners. This goes beyond 
universities. It extends to community colleges, citizens 
groups, mayors, the whole town getting together to address the 
particular needs of their communities and how they can bring 
all those who have not been exposed to STEM more in touch with 
it.
    So we do rely on museums and others as part of this 
partnership. Every one of these 40 pilot projects is completely 
different. They're all over the country. We're studying it and 
we're going to be evaluating it very closely because what we're 
hoping is that we find programs that scale, that can be 
replicated, that are really making a difference. Every program 
has a goal and metrics and they're evaluated against that.
    We want to ensure at the end of the day that these INCLUDES 
programs have done what they said they're going to do. They 
broaden the participation of people who have not yet know about 
STEM careers and bring them into that fold and then have 
something to offer in just the way you're talking about, 
lessons learned so that others can replicate those kinds of 
programs.
    Mr. Webster. So do we profile? I mean, do you profile what 
a potential STEM student might look like or be like or act 
like?
    Dr. Cordova. I think that's impossible.
    Mr. Webster. I got an idea. I just thought of one. When I 
was at Georgia Tech as a freshman, all of us had to take 
composition, and they spotted us a C because we only think out 
of the left side of our brain so maybe there's a start, I don't 
know. But anyway, go ahead.
    Dr. Cordova. Well, I was an English major when I was in 
college because people like my parents and friends and teachers 
all thought that I would go to college to get married and, you 
know, that's a form of profiling, right? And so little did they 
know it would be harder to do that than to become a rocket 
scientist.
    But I then discovered actually through television, public 
television, a show on stars, just like you're saying, you bring 
people to Florida to watch the space program. I saw the 
astronauts land on the moon. That was transformative. I saw 
scientists from MIT talk about dropping marshmallows onto a 
neutron star, hypothetical marshmallows onto a neutron star and 
how much energy that would liberate. And I said, wow, that 
really speaks to me. I've got to do that.
    I was the most unlikely person to become a scientist 
according to anybody around me growing up, but it happened. And 
it happens because people have those moments of inspiration 
that really touch them and speak to them, and then they say 
there's nothing stopping them and they find the pathway.
    Chairwoman Comstock. Thank you. And thank you for your 
passion on that. I met a young student who had scored perfectly 
on all of his science and he was about 15, 16. He had taken all 
of these advanced tests already, so being a grandmother I did 
ask him, was there anything in particular you did or that your 
mom did? She said watching Little Einstein is what captured his 
imagination in science and STEM. So my granddaughter now is a 
big fan at two years old of the Little Einstein show. I think 
that goes to also capturing children's imagination at a very 
young age and having programs in school on STEM education, that 
they don't lose them in that elementary age transitioning into 
junior high, too. So sorry I'm editorializing along here.
    But now let me recognize Ms. Bonamici for five minutes.
    Ms. Bonamici. Thank you very much, Madam Chair and Ranking 
Member Lipinski, and thank you to our witnesses.
    And I'm so glad we're having this conversation. I'm just 
going to follow up on this briefly. And I'm glad the students 
are here as well.
    I also serve on the Education Committee--Education and 
Workforce Committee, and I'm the founder and the co-Chair of 
the bipartisan STEAM Caucus. And STEAM integrates arts and 
design into STEM learning. It is not detract from it. It 
enhances it. And we've seen the benefits of STEAM in schools 
that are using that approach. It's hands-on learning, things 
like makerspaces, integrating arts and design into STEM 
learning. It has a lot of benefits.
    You mentioned left brain. It engages more students. It also 
educates both halves of the brain and results in more creative 
students who are better communicators. And I think your English 
degree probably has something to do with the fact that you are 
a great communicator today. There is research that shows that 
the Nobel Laureates in sciences are much more likely to be 
engaged in arts and crafts in their spare activity than other 
scientists, and they're--the brain research is there to support 
this as well.
    We have model STEAM schools across the country, and I 
encourage all of my colleagues on this Committee to join the 
bipartisan STEAM caucus and learn more about the benefits of 
STEAM.
    Dr. Cordova, you outlined the critical ways that the NSF 
supports research at universities. Oregon State University in 
my home State is one example. They've really leveraged NSF 
funding, particularly geoscientists directorate, funding to 
study the oceans' primary production and food web, as well as 
to study the coastal impacts of the 2015, '16 El Nino and the 
consequences for coastal flooding and ongoing beach erosion. So 
these studies and discoveries are critical not only for coastal 
communities but also for our global ocean health and food 
supply.
    And I know NSF is a critical funder of basic research in 
ocean sciences, along with NOAA, but NSF is critical. That 
research is supported from within the geosciences directorate, 
which we know has often been the target of attempted cuts. So 
can you please discuss the importance of those investments to 
our economic and national security? And I think I'll have time 
for another question as well.
    Dr. Cordova. First of all, can I just make a STEAM 
comment----
    Ms. Bonamici. Absolutely.
    Dr. Cordova. --because of students here?
    Ms. Bonamici. You're welcome to.
    Dr. Cordova. Those iPhones or whatever kind of smartphones 
that you have, students, are the result of a STEAM-like 
approach----
    Ms. Bonamici. Absolutely.
    Dr. Cordova. They have incredible technologies, all of 
them, interestingly first funded by the federal government to 
people in universities, including like the lithium iodide 
battery and the touchscreens and the microprocessors and all. 
And GPS of course. Somebody like Steve Jobs and company put all 
that together with an eye towards very creative design, and 
then we have something that's amazingly useful and creative to 
use. So----
    Ms. Bonamici. That's a great example.
    Dr. Cordova. Yes. So on ocean science, yes, of course. 
Seventy-some percent of the planet is covered by oceans, and 
it's vital to life. It may have been the source of life on this 
planet, the beginnings of it itself. It's important for 
transportation and it's important for the health of our food 
supply. We, you know, eat fish. We have lots of plants that 
grow in the ocean.
    The science that can be yielded by understanding with our 
ships, our vessels, our explorers in the oceans, understanding 
the life in the ocean and the health of the ocean is just so 
important to our own health and to jobs and to national 
security and as well as our own security of our coastal 
communities and so forth.
    So it's just very, very important that we have good 
monitoring of our oceans.
    Ms. Bonamici. Absolutely.
    Dr. Cordova. Yes.
    Ms. Bonamici. I want to get another question in. I'm sorry. 
I don't mean to interrupt. But NSF has proposed to build a new 
regional class of research vessel as a cutting-edge platform 
for scientists to address ocean science questions that are a 
priority of the National Academies decadal report for ocean 
sciences. And it's my understanding that the project is on hold 
because we're operating under a partial fiscal year 2017 
continuing resolution. So if Congress approves these vessels, 
how will they contribute to the advancement of ocean sciences?
    Dr. Cordova. Yes. Everything is still going along as you 
know, with Oregon State University's leadership, and they will 
make a recommendation in another month or two about shipyard 
selection and so forth. Our fleet is aging, and it just simply 
must be replaced. These vessels have the newest kinds of 
technologies, and we can actually have fewer ships. The end 
goal by 2022 is to have something like 15 vessels instead of 18 
in the academic research fleet, and that's much more than just 
NSF. But these RCRVs, research-class research vessels, are 
integral to that because they do have more technology; they can 
do more science on them, be more efficient. They can replace 
the old ships, and we can retire more ships and utilize those 
with all the latest science.
    Ms. Bonamici. Terrific. Well, we support efficiency. So 
thank you very much, and I yield back the balance of my time.
    Chairwoman Comstock. Thank you. And I now recognize 
Chairman Smith for five minutes.
    Chairman Smith. Thank you, Madam Chairwoman.
    And, Dr. Cordova, let me address a couple questions to you. 
The first one is I want to thank you for doing your best to 
implement the national interest standard that we've discussed 
over the last couple of years. But my question is how are you 
going to enforce that national interest goal on a grant-by-
grant case? What are you doing individually?
    Dr. Cordova. So we have the criteria, as you know, 
intellectual merit and the broader impact criteria, and this 
feeds into broader impacts, of course. And we are asking all of 
our proposers to, in their abstracts, which we now require a 
nontechnical abstract as well as the----
    Chairman Smith. Right.
    Dr. Cordova. --technical abstracts that are sometimes a 
little harder for the public to understand. The nontechnical 
abstract should say what is the importance of this project and 
which of those many things----
    Chairman Smith. Right.
    Dr. Cordova. --that you mentioned earlier does it address?
    Chairman Smith. And each individual grant applicant gets 
that guideline, right?
    Dr. Cordova. Gets that guideline, yes.
    Chairman Smith. Okay. And then their grant is evaluated by 
another individual, and that individual is looking to make sure 
that standard is met, right?
    Dr. Cordova. The general answer is yes. The person who has 
the particular responsibility is the program officer. Those 
program officers are our staff and they have the training.
    Chairman Smith. Do you have any metrics yet as to how many 
grants have succeeded in meeting that standard and how many 
have not?
    Dr. Cordova. No.
    Chairman Smith. Just in general. I'm just wondering if----
    Dr. Cordova. Yes. Well, we have been looking with these 
corrective lenses that you've given us if you call it that 
since January of the past year, not this year but last year, 
and so, we are doing what we said we were going to do. And we--
in order to be recommended to--remember that only 1/5 of the 
proposals we get--we get 50,000 proposals a year. We can only 
fund one out of every five of them at most: those that go up 
for recommendation to the division leader----
    Chairman Smith. Right.
    Dr. Cordova. That's the kind of thing that would be looked 
at. I have a person, as I have promised, in my office--his name 
is Jim Hamos--who works closely with the process and what the 
guidelines are, and are they being followed, and watches that 
in a general sense. But we certainly believe, because they go 
up to the division leaders, who are also trained and are 
educated about how important this is----
    Chairman Smith. Okay.
    Dr. Cordova. --that they wouldn't go up without that being 
apart of it. And a proposal can go back to the proposer for 
corrections, and we do that all the time just so you know, 
Chairman Smith, that the title is not clear. It doesn't make 
sense. The abstract doesn't make sense. You haven't addressed 
this, you haven't addressed that. And ultimately, we've given 
the program officer the wherewithal to--if it still is not 
coming back in a good form----
    Chairman Smith. Right.
    Dr. Cordova. --for the public to review, that the program 
officer, that's his or her responsibility.
    Chairman Smith. All right. Thank you for that. In regard to 
the occasional--though I understand they may be increasing--
research misconduct and fraud, what are you doing to try to 
correct that prospectively?
    Dr. Cordova. Well, there are official standards about 
research misconduct and plagiarism and falsification of data, 
and we are working--you know that most of our grantees are 
universities and colleges, say 85 percent of them, so we work 
closely with them. We make sure that they know what the law is 
and what the guidelines are----
    Chairman Smith. Right. If I could----
    Dr. Cordova. --and then they're judged against them.
    Chairman Smith. If I can interrupt you just real quickly--
--
    Dr. Cordova. Yes.
    Chairman Smith. --because I don't know the answer to this 
question. Are there any sanctions to be imposed on individuals 
who might----
    Dr. Cordova. Oh, yes.
    Chairman Smith. --engage in fraud?
    Dr. Cordova. Oh, absolutely.
    Chairman Smith. What are the sanctions other than denial of 
a grant or something?
    Dr. Cordova. Well, there's a full spectrum of sanctions, 
and Ms. Lerner can give you more detail on that. They go all 
the way from not letting the person submit grants for a few 
years to debarment. Sometimes, as I mentioned earlier, the 
punishment has to fit the crime, so if you forget quote marks 
but you do have the reference there, that is different than 
intentionally copying something and not giving credit.
    Chairman Smith. Madam Chairwoman, could I have an 
additional 30 seconds only real quickly for a last question, 
and this is in regard to dyslexia funding. Not everybody on the 
Committee may know it, but NSF is spending $2.5 million a year. 
And I just wonder what you envision the next steps to be in 
research that will benefit those with dyslexia?
    Dr. Cordova. Yes, I'm glad you asked that. It's part of the 
READ act. As you know, that's mostly in our 2017 budget, which 
is on a continuing resolution. Ahead of that that we have been 
funding the good proposals that we get on dyslexia. I just made 
a trip to Florida State University to see the MagLab there this 
week and had a really good talk with their dyslexia folks 
there.
    The challenges for NSF are to find out what its particular 
role in dyslexia research should be, and that should be very 
upstream. It should be the fundamental research because we have 
the National Institute of Child Health Care and Development 
that funds a lot of research on learning disabilities, and 
there's also an institute in the Department of Education. The 
NSF wants to do something where nobody else is touching it in 
this space.
    So to answer your question, Chairman Smith, I think that we 
need to bring to D.C. in the fall a workshop in which I hope 
that you will give a keynote and bring together the scholars 
and workers in this field and talk about what should be NSF's 
special contribution in this area.
    Chairman Smith. Okay. Thank you, Dr. Cordova.
    Chairwoman Comstock. Excellent. Thank you. I now recognize 
Mr. Beyer for five minutes.
    Mr. Beyer. Yes, thank you, Madam Chair, very much.
    I often find myself offering respectful disagreement with 
my Chairman, so I'd like to heap praise on him for his 
leadership on the dyslexia issue, so thank you, Mr. Chairman.
    The--Ms. Lerner, you expressed concern about the increase 
in the number of IPAs in the executive-level positions and the 
fact that it's--that they're significantly more expensive 
because they're paid at the rate of the university, and that 
it's gone from 20 in 2009 up to 29 in 2016. And it's like seven 
out of nine of the senior-level positions and--what's the right 
balance? How do we figure out how many should be long-term 
permanent government employees at the GS-type rates and how 
many should be IPAs pulled from the university?
    Ms. Lerner. Thank you. Striking the balance is more of the 
agency's call than mine. I would point out in making the 
determination as to how to strike that balance you certainly 
need to consider the strengths and the bench expertise that 
scientists who have ongoing research practices bring to the 
Foundation and to the merit-review process, but you have to 
balance that against the costs and the fact that those costs 
are paid for out of research funding. So I would defer to the 
agency in determining what the right number is, but I think you 
certainly have to consider both the good and the challenge that 
comes with the IPAs when you do that.
    Mr. Beyer. Thank you. Shifting to the Chairman's question 
about fraud, plagiarism, things like that, I know that 175 
cases over four years with 12,000 grants a year is a little 
more than 3 cases per 1,000 grants, which I would argue is 
actually better than our ethical record in the U.S. House. But 
it's up from where we used to be. So, Dr. Cordova, why do you 
think that's increasing?
    Dr. Cordova. That's because of the talented Ms. Lerner in 
her group one could say. Why do we find more cancer? Got better 
analytical tools. So that certainly could have a bearing on it.
    Mr. Beyer. Okay. So it's not necessarily that there is more 
but it's just we're discovering more.
    And, Ms. Lerner, in her long testimony, talked about the 
big four things she was concerned about and, you know, one by 
one, number one was incurred cost submissions, awaiting on OMB 
approval, earned value management systems. You guys have begun 
validating inputs, end-to-end cost surveillance, third-party 
evaluation by September 30. Everything looks very responsive on 
the part of leadership's part. The one question you said that 
was--the National Science Foundation indicated it will be 
revising its management fee policies but has not committed to 
requiring awardees to report on other sources of revenue. And, 
Dr. Cordova, why have--why is that a hurdle, the notion of 
asking your grantees to report on other sources of revenue with 
respect to management fees?
    Dr. Cordova. I'm not sure I'm the best person to answer 
that so I'll get you a more complete answer after this.
    We did make changes in the management fee policy--I'll 
start with that--as a result of the NAPA recommendations and 
the recommendations of the OIG. I will say that our group in 
budget and finance respectively tortured themselves over the 
question of management fee and how to do it right and looked at 
a lot of other government agencies and how they do it and 
adopted the government-wide model of how to handle management 
fees with the one added change that we do have a list of things 
that our management entities should not do with the fees.
    Asking the kinds of questions that you just said and close 
monitoring of it, we don't really have the workforce to do this 
because once you say you're going to do something and monitor 
it, then you actually have to be responsive to that, 
responsible, and continually, you know, do it, and that would 
take a kind of workforce, the type--and a number that we simply 
don't have. So what we're doing instead are spot checks on 
where think that the risk is higher because of the cost of the 
project or because of its sensitivity, any number of reasons, 
and doing spot checks on utilization of the management fee.
    Mr. Beyer. Okay. Great. So--because I think the most 
painful hearing we've had yet has been the management fees for 
the alcohol in the Christmas parties. Yes.
    Dr. Cordova. Well, that's on the no-no list.
    Mr. Beyer. Okay. Thank you very much. I yield back, Madam 
Chair.
    Chairwoman Comstock. I now recognize Ms. Esty for five 
minutes.
    Ms. Esty. Thank you, Chairwoman Comstock and Ranking Member 
Lipinski. Thank you again to Ms. Lerner and to my good friend 
Dr. Cordova.
    I think you can guess where I'm going to be going, Dr. 
Cordova, given our shared passion around inclusion in STEM. I 
have a STEM Advisory Committee, and we've been working hard to 
find ways to encourage underrepresented populations, 
particularly girls and children of color, to get them excited. 
I know you've talked about the initiatives in NSF, and I do 
want to note the President has signed two bipartisan bills, and 
both of them or on women in STEM coming out of this Committee, 
which I think is a testament that the Chairman and I sponsored 
those. And I think that's a testament to the importance of 
these provisions.
    Chairwoman Comstock. And I owe you a pen. I've got it.
    Ms. Esty. Oh, I'll take the pen. Thank you.
    So I wanted to ask you a little bit--and this came up in my 
STEM Advisory Committee recently with a woman, Kelly Johnson, 
who administers STEM grants and who was talking about sort of 
the disturbing research that's out there about how early girls 
self-identify as not being, quote, ``smart enough'' for math 
and science and how also I think you've presented some of this 
information of how when MIT changed its course description for 
one of its computer science classes to have the subject matter 
be around social issues and health issues, they found that the 
participation of women in that course skyrocketed to over 50 
percent.
    Can you talk a little bit about what you--whether you think 
NSF has a role and how we could help design curricula in 
elementary and middle school that would incorporate that 
growing body of knowledge about what tends to get girls more 
involved in science and maybe broaden not just experiential 
work, as my colleague Ms. Bonamici has talked about, but also 
even subject matters of how are you taking these powerful tools 
of math and science and applying them to maybe somewhat 
different issues, maybe broader issues, clean water in Africa, 
health issues in our inner cities. Could you talk a little bit 
about that, please?
    Dr. Cordova. We do fund development of course curricula in 
K-12, and we would welcome proposals that went along those 
lines, as a result of your Women in Entrepreneurship--because 
it's all related. It goes back to when you're little--that I 
think I would be tempted to recommend to my colleagues at NSF 
that we issue a dear-colleague letter to encourage the 
submission of that kind of curriculum. I think it could truly 
make a difference to be exposed those young ages to that kind 
of curriculum.
    I talked earlier about our INCLUDES program, and that we 
funded 40 pilots in the first round, and we have another round 
coming up here. That kind of thing would make a wonderful 
INCLUDES project, too, and I'm sure there are people listening 
who would be inspired to do that.
    Ms. Esty. Could you talk a little bit about the scaling up? 
I know that the key part of what you're looking at. And how 
does NSF propose or what do you think is going to be necessary 
once you identify programs that can be scaled up? How are we 
going to disseminate that information? Because that's a 
question I've been asked a lot. I think there are a lot of 
innovative programs around the country and I find even in my 
own State of Connecticut, in my own district, people in the 
same field don't even know about projects occurring, you know, 
two towns away. Do you think--what role do you think NSF or we 
can play in helping to disseminate information once we identify 
programs that are really working?
    Dr. Cordova. Yes. Well, it's on all of us to do that of 
course, but we--we've determined that in the INCLUDES program 
that we will not only carefully evaluate how these projects are 
going but we will also take the best practices. And we are 
bringing together periodically the leaders of these programs to 
give talks, as they did in January, to each other about how 
things are going. We do need to remember that documenting the 
results of a study and putting it in the open--in an open 
literature, an open website is just incredibly important.
    And I know you've mentioned this at our previous hearing, 
too. I think that this gives us a new start, having this 
INCLUDES program. It's a great place to see how successful we 
can be with documenting these programs, putting the lessons 
learned on a website so that everybody can learn from the 
experiments of others and can extract what's most valuable from 
those programs. I think you are really on the leadership edge 
of this, Congresswoman Esty, and we can do something so that by 
the next hearing I'll have a better answer.
    Ms. Esty. Thank you very much, and I yield back.
    Chairwoman Comstock. Thank you. And I thank the witnesses 
for their testimony and the Members for their questions. The 
record will remain open for two weeks for additional written 
comments and written questions from Members.
    And again, I thank our witnesses, both of you, for all of 
your great work in this very important field and how important 
it is and appreciate again the students being here. We did 
share the book you gave us today. We shared it with students so 
they can bring it back. And I don't know if the students were 
here when Dr. Cordova showed the video, but that is also on the 
website. So if you'd like to see that and share that with your 
other classmates, as well as the book, we hope we will see more 
of all of you in the STEM and STEAM fields.
    So with that, this hearing is adjourned. Thank you.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
